<html>
<title> - FIELD HEARING: VOTING RIGHTS AND ELECTION ADMINISTRATION IN NORTH CAROLINA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                                           
         VOTING RIGHTS AND ELECTION ADMINISTRATION IN NORTH CAROLINA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 18, 2019

                               ----------                              

      Printed for the use of the Committee on House Administration


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-117 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                            C O N T E N T S

                              ----------                              

                             APRIL 18, 2019

                                                                   Page
Voting Rights and Election Administration in North Carolina......     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     3
Hon. G.K. Butterfield............................................     5
    Prepared statement of Hon. Butterfield.......................     7

                               WITNESSES

Mr. Irving L. Joyner, Professor of Law, North Carolina Central 
  University.....................................................    10
    Prepared statement of Prof. Joyner...........................    12
Mr. Tomas Lopez, Executive Director, Democracy North Carolina....    34
    Prepared statement of Mr. Lopez..............................    36
Rev. Dr. William Barber II, President and Senior Lecturer, 
  Repairers of the Breach........................................    91
    Prepared statement of Dr. Barber.............................    93
Hon. Dan Blue, Senate Minority Leader, North Carolina State 
  Senate.........................................................   111
    Prepared statement of Senator Blue...........................   113
Ms. Caitlin Swain, Co-Director, Forward Justice..................   115
    Prepared statement of Ms. Swain..............................   117
Hon. Patricia Timmons-Goodson, Vice Chair, U.S. Commission on 
  Civil Rights...................................................   129
    Prepared statement of Hon. Timmons-Goodson...................   131

                       SUBMISSIONS FOR THE RECORD

Kristin R. Scott, Board of Elections Director, Halifax County, 
  North Carolina, statement......................................   142
North Carolina's Racial Politics: Dred Scott Rules from the 
  Grave, Irving L. Joyner, article...............................   143
Report, An Assessment of Minority Voting Rights Access in the 
  United States: 2018 Statutory Enforcement Report, United States 
  Commission on Civil Rights.....................................   212

 
                    FIELD HEARING: VOTING RIGHTS AND
               ELECTION ADMINISTRATION IN NORTH CAROLINA

                              ----------                              


                        THURSDAY, APRIL 18, 2019

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:15 a.m., at 
the Centre at Halifax Community College, 200 College Dr., 
Weldon, North Carolina 27890, Hon. Marcia L. Fudge [Chair of 
the Subcommittee] presiding.
    Present: Representatives Marcia L. Fudge and G.K. 
Butterfield.
    Staff Present: Jamie Fleet, Majority Staff Director; Sarah 
Nasta, Elections Counsel; Eddie Flaherty, Director of 
Operations; Veleter Mazyck, Chief of Staff; Meredith Connor, 
Professional Staff Member; David Tucker, Senior Counsel and 
Parliamentarian; Peter Whippy, Communications Director; Mannal 
Haddad, Majority Press Secretary; and Courtney Parella, 
Minority Communications Director.
    Chairwoman Fudge. Again, good morning, everyone. Our third 
panelist is on his way in, but we do need to begin. The 
Subcommittee on Elections of the Committee on House 
Administration will come to order.
    I would like to thank the Members of the Subcommittee and 
my colleagues from the House who are here with us today, as 
well as our witnesses and all those in the audience, for being 
here today.
    I ask unanimous consent that Members have five legislative 
days to revise and extend their remarks and that written 
statements be made part of the record. Hearing no objection, so 
ordered.
    Our third witness has arrived, so we will let him take his 
seat.
    Good morning, my friend.
    Good morning again.
    I want to thank Mr. Butterfield, our witnesses, and the 
people of North Carolina for joining us here today. I want to 
thank my distinguished colleague again, Mr. Butterfield, for so 
warmly welcoming us to his district as we continue this 
important work. Congressman Butterfield has a long and 
exemplary record protecting the right to vote, and I am so 
grateful for the leadership he shows with our Committee.
    We are here to examine the state of voting rights and 
election administration in North Carolina. I cannot think of a 
better place to continue our hearings to ensure that all 
Americans can exercise their right to vote.
    The right to vote is the core of what it means to 
participate in our democracy. The power of the ballot sets the 
direction for our communities, our families, and our lives.
    When the Supreme Court struck down a core provision of the 
Voting Rights Act in 2013, Chief Justice Roberts wrote 
nonetheless that, and I quote, ``Voting discrimination still 
exists, no one doubts that.''
    Two months later, legislators in North Carolina proved that 
point. They rushed through an omnibus piece of legislation 
known by many as the monster law that slashed a week of early 
voting, mandated an overly restrictive form of photo ID that 
African Americans disproportionately lack, eliminated same-day 
voter registration, ended the counting of out-of-precinct 
ballots, and eliminated preregistration for 16- and 17-year-
olds.
    Fortunately, that same day, when the Governor's signature 
was barely dry, a group of North Carolinians sued, and they put 
in years of work. They organized and they won. As we are likely 
to hear this morning, a unanimous three-judge panel for the 
Court of Appeals for the Fourth Circuit found that the 
challenge provisions of the monster law were unconstitutional, 
a violation of the 14th Amendment, and a violation of what 
remains of the Voting Rights Act. The Fourth Circuit found that 
the new provisions targeted African Americans, and again I 
quote, ``with almost surgical precision and clearly enacted 
with discriminatory intent.'' And so those challenged 
provisions of the law were blocked.
    We have with us today people from North Carolina who are 
leaders, fighters in the cause of justice. We are going to 
learn how much more we must do to ensure voting remains free 
and fair in North Carolina. This hearing and the others we are 
holding will help as the Congress of the United States examines 
what must be done to ensure every eligible American can vote 
and have that vote counted.
    I would now yield to my colleague Mr. Butterfield for his 
opening remarks.
    [The statement of Chairwoman Fudge follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Butterfield. Let me thank you, Chairwoman Marcia Fudge, 
for your friendship, and thank you for your leadership, and 
thank you certainly for your willingness to bring this field 
hearing to northeastern North Carolina.
    When we first had the conversation about the location for 
this hearing, I told Marcia that my preference was Halifax 
County, because it is a very dear county to me, but in the 
interest of convenience, since Raleigh-Durham was pretty close 
to the airport, it may be nice to have it at the NCCU School of 
Law. And so I gave her the option of those two locations, and 
she emphatically said, we need to go to Halifax County, North 
Carolina.
    And so, thank you so much for your willingness to bring 
this hearing to this location.
    Thank you to the panelists for your willingness to share 
your valuable testimony today that will weigh heavily in future 
legislation to protect the right to vote.
    Now, I know my colleagues are laser-focused on the 
developments in Washington today as the Mueller report is being 
made available to the Congress and to the public. Immediately 
following this field hearing, I will quickly--and I am sure 
other Members will as well--obtain a copy of the report and 
read it from cover to cover.
    Attorney General Barr has a solemn obligation, as Attorney 
General, to provide the American people with definitive answers 
about the President's conduct and whether President Donald 
Trump violated the trust that the American people have reposed 
in him. This report today contains the answers the American 
people deserve to see.
    Madam Chairwoman, Halifax County is a significant portion 
of my Congressional district. As a Superior Court judge for 
some 15 years, I held dozens of weeks of court in this county. 
In fact, my last week presiding before going to Washington was 
in this county.
    My relationship with Halifax dates back for many, many 
years. My mother and her sister taught at the Rosa Wall School 
here. Her brother, my uncle, was the principal of the Weldon 
Graded School, which is right down the street. My uncle, my 
dear uncle, was pastor here for 64 long years.
    And so, as a young lawyer I found myself entangled in 
dozens of cases in this county, including representation of Mr. 
Horace Johnson in a Section 2 case of Johnson v. County of 
Halifax, which dismantled at-large commissioner districts and 
resulted in the creation of districts that have now elected 
four African-American commissioners out of seven, one of which 
is here today, the chairman of the Board of Commissioners, Mr. 
Vernon Bryant. I might add that the NAACP Legal Defense Fund 
was the lead counsel in the case--I did not have the 
resources--was the lead counsel in the case and provided all 
the resources.
    I am proud of Halifax County, I am proud to be their 
Representative, and I am proud to have this hearing today.
    Finally, Madam Chairwoman, when slavery ended there were 
10,300 slaves here in Halifax County. Almost 7,000 slaves lived 
across the river in Northampton County. The former slaves 
became registered voters. They elected African Americans to the 
legislature from this county, elected African Americans to the 
Board of Commissioners, and in 1882 an African American was 
elected to Congress from this county who served for two terms. 
His name was James Edward O'Hara from the town of Enfield.
    The ability to vote was taken away from African Americans 
in 1900 with the passage of the literacy test. The literacy 
test was nullified by the enactment of the 1965 Voting Rights 
Act.
    I might add very briefly that part of the legislative 
record for the Voting Rights Act emanated from Northampton 
County, right across the river. A lady named Louise Lassiter 
from Seaboard presented herself to register to vote in that 
county, was denied the right to register because she could not 
read nor write. She retained an attorney from Weldon here. His 
name was James Walker. Walker retained Sam Mitchell, who was a 
black lawyer from Raleigh.
    Those two lawyers litigated the case all the way to the 
U.S. Supreme Court challenging the literacy test. Though they 
lost that case, it laid the legislative record that was used 
for the enactment of the 1965 Voting Rights Act. Hearings like 
this are critically important in the legislative process.
    Since 1965, black citizens in this county have become 
politically active, but there continue to be obstacles that 
remain, which I am sure the witnesses will discuss today. Most 
notable is the fact that only one--one--early voting site 
serves this entire county. Halifax County is a persistent 
poverty county with a poverty rate of 28 percent, with one of 
eight households without transportation.
    And so, Madam Chairwoman, this hearing is very important as 
we prepare to take up legislation to guarantee the unfettered 
right to vote to every American. We are determined--yes, we 
are--we are determined to fix Section 4 of the Voting Rights 
Act, hopefully with bipartisan support, which was invalidated 
by the Court.
    Prior to the Supreme Court decision, 40 counties in North 
Carolina and the State legislature were required to submit 
voting changes to the Department of Justice for preclearance, 
thus preventing discriminatory changes in election law and 
procedure. Not having the benefit now of Section 5, affected 
communities must now resort to very expensive litigation or 
suffer the effects of the discriminatory voting change.
    This Subcommittee must build a record to provide the 
legislative basis for the passage of strong voting rights 
protections and amending Section 4 of the Voting Rights Act to 
meet the concerns of the Supreme Court.
    I want to thank you, Madam Chairwoman, for your time, thank 
you for your friendship, and I am prepared to hear from these 
witnesses.
    [The statement of Mr. Butterfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much, Mr. Butterfield.
    It is now my pleasure to introduce our witnesses for today.
    First we have Professor Irving Joyner, Professor of Law at 
North Carolina Central University School of Law, a leader in 
this State on the cause of voting rights, the rule of law, and 
the Constitution.
    Mr. Tomas Lopez, a leader with Democracy North Carolina, 
whose organization is on the front lines of protecting the 
right to vote.
    Last but not least, Dr. Reverend Barber, who is my good 
friend--thank you, nice to see you, sir--President and Senior 
Lecturer with Repairers of the Breach, whose moral leadership 
and activism has inspired generations of people in this State 
to push back against North Carolina's voter suppression and so 
much more.
    Mr. Joyner, we will begin with you. You will have five 
minutes. There is a lighting system. When the light is green, 
obviously that means go; when it turns yellow, you will have 
about a minute left; and when it turns red, I would ask for you 
to try to close.
    Thank you, sir. You are recognized.

    STATEMENTS OF IRVING L. JOYNER, PROFESSOR OF LAW, NORTH 
    CAROLINA CENTRAL UNIVERSITY SCHOOL OF LAW; TOMAS LOPEZ, 
  EXECUTIVE DIRECTOR, DEMOCRACY NORTH CAROLINA; AND REV. DR. 
WILLIAM BARBER II, PRESIDENT AND SENIOR LECTURER, REPAIRERS OF 
                           THE BREACH

                 STATEMENT OF IRVING L. JOYNER

    Mr. Joyner. Thank you for this opportunity to appear before 
you, Chairwoman Fudge; Congressman Butterfield. I want to thank 
you for coming here and giving me the opportunity to come to 
Halifax County again. I want to stop in Halifax County for this 
purpose rather than just driving through it on my way to D.C.
    Let me just introduce myself. I am a Professor at North 
Carolina Central University School of Law. I chair the North 
Carolina NAACP Legal Redress Committee, and I have served as 
its legal counsel and have engaged in research in this voting 
rights area, as well as engaged in litigation of voting rights 
issues here in this State.
    As a people, the most important right that we have is the 
right to vote. It is beyond dispute that voting is of the most 
fundamental significance under our Constitutional structure. 
Other rights, even the most basic, are illusory if the right to 
vote is undermined.
    I have submitted a statement to this panel already, along 
with a law review article that I prepared a couple years ago 
for the Duke Journal of Constitutional Law and Public Policy, 
which discusses much of the history dealing with voting rights 
in North Carolina. I am just going to kind of scan through that 
since I only have five minutes.
    Up until 1835, free Africans in this State could vote as a 
matter of law, and they could vote up until the time that the 
General Assembly made a decision that they were going to 
disenfranchise those free Africans from voting. The free 
Africans who owned property in the State who qualified 
otherwise as voters could vote, and there was a decision made 
by members of the General Assembly that they did not want 
African Americans at that time to vote, because they feared 
what they called Negro domination.
    Even though no records indicate that any African American 
had been elected to any office, the mere fact that they were 
voting was just too much for members of the General Assembly, 
who adopted the notion--and later confirmed in the Dred Scott 
decision--that this American democracy and its Founders never 
intended that people of color would be citizens or would be 
able to vote. There was an intentional decision made at that 
time to disenfranchise African Americans.
    Representative Butterfield has already talked about the 
Reconstruction governments in which African Americans could 
vote. Following 1868, with the development of a new 
Constitution in North Carolina, led by Abraham Galloway and 
others, the right to vote was enshrined in the North Carolina 
Constitution, giving to African Americans the right to 
participate on equal grounds with Whites in the vote. From 1868 
until 1898, that right was observed. Although there was a lot 
of violence, a lot of pressure and harassment directed toward 
those African Americans who could vote, 90 percent of our 
community registered and regularly participated in the process 
up until that time.
    In 1898, the General Assembly made decisions to 
intentionally disenfranchise those individuals from the right 
to vote. The literacy test, poll taxes, and a number of other 
devices were put in place that took away from African Americans 
deliberately and intentionally, because they wanted to avoid 
the possibility of what was then described as ``Negro 
Domination'' of whites, where African Americans would be 
lording over whites. So there was an intentional decision made 
at that time.
    In 1947, Kenneth Williams, Reverend Kenneth Williams in 
Winston-Salem, became the first African American to be elected 
to a city council position in that city. It was a single-member 
district in which an African American ran against a white, and 
for the first time in history African Americans were able to 
elect a member of their own. After that, there was an 
intentional decision to get rid of the right to vote by multi-
member districts and at-large campaigns that Representative 
Butterfield spoke to.
    I am going to stop. My time is up. And I will be available 
to answer any questions that you have.
    [The statement of Mr. Joyner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much. We will have 
questions after all the panelists speak.
    Mr. Lopez, you are recognized for five minutes.

                    STATEMENT OF TOMAS LOPEZ

    Mr. Lopez. Madam Chairwoman, Representative Butterfield, 
thank you for being here and for the opportunity to testify. My 
name is Tomas Lopez, and I am the Executive Director of 
Democracy North Carolina. We are a nonpartisan, nonprofit 
organization that works to, among other goals, protect the 
right to vote in this State.
    As part of this work, we seek to bring North Carolinians, 
especially historically underrepresented people of color, into 
the political process and encourage their participation and 
leadership through voting, elections monitoring, and issue 
advocacy.
    We also advocate for policies and practices that we believe 
will increase voter access and participation, author original 
research on election administration, and help coordinate a 
statewide nonpartisan poll monitoring and voter assistance 
network that staffed 1 in 10 North Carolina polling places in 
2018.
    Prior to my role here, I was a voting rights attorney at 
the Brennan Center for Justice, where I litigated voting rights 
cases in the Federal courts, contributed to original research 
on election issues, and supported State-level election reform 
efforts.
    My written testimony speaks to a consistent, concerted, 
years-long effort to limit voter participation and impact in 
North Carolina for the sake of short-term political advantage. 
That includes things like the 2013 monster law.
    I want to focus my comments here on a more recent 
development, and that is the impact of efforts to revive 
elements of the 2013 law, namely through a revived photo ID 
requirement and through recent reductions to early voting.
    As to the ID requirement, last year, in 2018, the North 
Carolina General Assembly placed onto the ballot a measure that 
requires photo ID to vote. It was broadly worded, did not 
provide specifics as to what kind of ID would be required, and 
no word of what kind of ID would be required was provided prior 
to the referendum in which it was put into place.
    Following that election but prior to the seating of a new 
General Assembly where there was no longer a supermajority, the 
legislators put in place an ID requirement that looks very 
similar in wording to the original law from 2013 that was 
overturned in 2016. A key difference in that law, or at least a 
surface-level difference in that law, is that this new law 
provides for the use of student and employee IDs for voting.
    The problem that has been emerging in practice is that 
while the law says that you can use student IDs to vote, what 
we have seen is that, as written, the law requires 
universities, colleges, and community colleges to attest under 
penalty of perjury as to citizenship verification, imposes 
administrative challenges that have discouraged campuses from 
applying, and has led to a situation where there are a total of 
37 community colleges, colleges, and universities out of over 
100 eligible institutions that have even applied to get their 
student IDs to be usable in 2020. And of those, 11 campuses 
were denied, including the 10 constituent universities of the 
University of North Carolina system, which include the flagship 
in Chapel Hill and one Historically Black College.
    The General Assembly is considering legislation that would 
modify these requirements, including by lifting the attestation 
requirement. That measure passed the State House, but it is 
unclear what will happen with it in the Senate.
    The second issue I want to raise is early voting. Last 
year, in June, the State legislature passed a law, SB 325, that 
requires counties to stage early voting for the same hours 
across all sites. And while uniformity presents theoretical 
benefits, it has in practice reduced the availability of early 
voting.
    What happened in the past was counties, especially in low-
resourced areas, made early voting available at different times 
across a variety of locations during the early voting window, 
but the 2018 law makes this impossible by requiring counties 
that are early voting sites to be open for the same amount of 
hours if they are open during the week. So what has happened is 
that the most popular way to cast a ballot in North Carolina, 
which is before election day through early voting, is less 
available.
    We have 43 counties reducing the number of early voting 
sites in 2018 compared to the last midterm, 51 that have 
reduced the number of weekend days offered, 67 that have 
reduced the number of weekend hours. In 8 counties where a 
majority of voters are black, 4 have reduced sites, 7 have 
reduced weekend days, and all 8 reduced the number of weekend 
hours during early voting, and none saw increases in sites or 
weekend options.
    Now, this map up here shows Halifax County. In 2012, 2014, 
and 2016 there were three early voting sites here, in Roanoke 
Rapids, Halifax, and Scotland Neck. After the 2018 law required 
this uniformity, we are left with just with an early voting 
site in Halifax.
    Last year's midterm election had very high turnout. It was 
across the State, across all demographic groups, dramatic 
increases. There were only three counties that actually reduced 
turnout. Two were counties that were directly affected by 
Hurricane Florence in pretty dramatic ways and the other was 
Halifax County.
    We see as a whole the cumulative effects. I realize my time 
is running here. The experience in North Carolina across these 
issues and the set of things that we will be talking about this 
morning speak for Congress to do two things. First is to 
restore the full protections of the Voting Rights Act in a way 
that is responsive to the way in which voting discrimination 
happens today. The second is to ensure, like legislation like 
H.R. 1, to ensure that government is playing the role that it 
should be in facilitating real participation in the political 
process.
    [The statement of Mr. Lopez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much.
    Reverend Barber, you are recognized.

                 STATEMENT OF WILLIAM BARBER II

    Rev. Barber. Thank you, Madam Chairwoman, and to 
Congressman Butterfield as well.
    I want to remind us today that the word for ``vote'' and 
``voice'' in Hebrew is the same word. And here we are in Holy 
Week, and it says Jesus said in Holy Week no matter what else 
we do, if we do not attend to justice we have left undone the 
weightier matters of the law.
    I am also a member of the National Board of NAACP and 
President Emeritus of the North Carolina NAACP. And we must 
have a full restoration of the Voting Rights Act in this 
country.
    Here in North Carolina, we have spent the better part of a 
decade defending our State against an all-out attack, an all-
out attack on voting rights. In 2008, North Carolina's 15 
electoral college votes went to America's first Black 
President, and it sent shock waves through a racially 
polarized, White-dominated Republican Party that had since the 
time of Nixon banked on winning elections in the South through 
campaign strategies that stoked racial tensions and suppressed 
the vote.
    When this Southern strategy failed to deliver in 2008 and 
was instead defeated by a multi-racial fusion coalition in 
North Carolina, right-wing extremists scrambled to invest 
unprecedented sums of money in State legislative races, 
resulting in an extremist takeover in 2010.
    The Governor would veto an attempt to put in place a photo 
ID in 2010 but could not veto the racist redistricting maps 
that were put in place. The majority put them in place, redrew 
both the State legislative districts and the U.S. congressional 
districts in their favor. This was an act that was coordinated 
by the former speaker, now Senator Thom Tillis, and a host of 
other regressive lawyers, led by Thomas Farr.
    When they made those new maps, it allowed for a 
supermajority to be elected in 2012. This supermajority, when 
elected in 2013, immediately began to introduce legislation and 
voting options and voting policies that would block the 
expansion of the electorate that we had fought so hard for. It 
would take us eight years, eight years to overturn these 
efforts, eight years to overturn this supermajority that was in 
place, because of sweeping unconstitutional racial 
gerrymandering.
    In 2013, they passed the Senate Bill 666 during this very 
week, Holy Week, 666. It was the worst attack on voting rights 
we have seen since Jim Crow. Then they tabled it and they 
waited. They waited until June 25, 2013, when the Supreme Court 
gutted the heart of the Voting Rights Act. And some of the 
leadership in this State said, now that the headache has been 
removed, we can move forward.
    Immediately, just hours after the Shelby ruling was handed 
down, the leadership then of the North Carolina General 
Assembly announced that because the headache has been removed, 
they would move forward now with the monster voter suppression 
law, the monster voter suppression law.
    That law was passed, and, as you said, before the ink was 
dry we filed suit, the North Carolina NAACP, with others. But 
this law sought to eliminate same-day registration, 
preregistration for 16- and 17-year-olds, out-of-precinct 
ballot, the first week of early voting, and instituted one of 
the Nation's most stringent voter ID requirements. We have been 
battling for 2,023 days today, 5 years, 9 months, and 24 days 
since the Voting Rights Act was gutted in 2013.
    This monster voter suppression law was the worst of its 
kind after Shelby in the Nation, and it was only possible 
because the preclearance protection was no longer in place. It, 
in fact, has been the worst we have seen since Jim Crow.
    We heard the lawyer who was leading the effort say in court 
that retrogression was okay now that the Voting Rights Act was 
no longer in place. We heard a Federal judge ask, it is on the 
record: ``Why don't people want people to vote in North 
Carolina?'' In response to this, thousands, thousands were 
arrested, thousands marched of every race, color, creed, and 
party.
    Without the voting rights preclearance, it took us years of 
organizing and fighting. Finally, in July 2016, a unanimous 
panel of the U.S. Court of Appeals, the Fourth Circuit, held 
that the law that targeted African Americans with almost 
surgical precision was, in fact, unconstitutional.
    However, they have not stopped. Even in 2018 there is a 
continuing effort to suppress the vote, to put in place in the 
Constitution voter suppression through photo ID.
    We must have a restoration of the Voting Rights Act in this 
country. It is, in fact, continuing to undermine the very power 
that now African Americans, whites, and brown people have, 
particularly in the South, that could open up the politics of 
this country. The Southern strategy is still being worked 
through all these efforts to suppress the vote at the very time 
that we have more power and potential than we have ever had in 
history.
    [The statement of Rev. Barber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    And thank you all.
    We are now going to open for questions, and I am going to 
recognize my colleague, Mr. Butterfield, for five minutes.
    Mr. Butterfield. Thank you very much, Madam Chairwoman.
    Let me first address my initial question to Professor 
Joyner.
    Mr. Joyner, thank you for your testimony today. You have 
been on the front lines in this State for a very long time, and 
I just want to thank you and those that work with you and 
beside you for all the work that you do.
    You mentioned Dr. Kenneth Williams in Winston-Salem who 
became the first African American alderman in North Carolina in 
1947. You are absolutely right about that and as a result of 
that, Winston-Salem went from district elections, I believe, to 
at-large elections.
    The next African American elected was in Fayetteville, 
Cumberland County. The same thing happened. The third was in 
Durham. The fourth was in my hometown of Wilson, North 
Carolina. After the African American candidate won in Wilson in 
1953, in 1957 the city changed--without notice--changed the 
method of election from district elections to at-large 
elections, and the African American candidate lost miserably in 
1957.
    I remember it so well. I was 10 years old. I have the same 
name as the candidate who lost that election.
    But the question that I raise is, is it critical to 
minority communities to have district elections? Is there a 
benefit? Is there a leveling of the playing field when you have 
fairly drawn election districts?
    Mr. Joyner. And the answer to that is yes, because what 
happens and what happened with your father in Wilson, to 
Kenneth Williams in Winston-Salem, was that large populations 
of African Americans were submerged into larger white 
populations and prevented individuals from being able to be 
elected, because you had race-based voting that was occurring 
at that time.
    But following up with that was the strategy adopted then by 
African Americans to single shot or bullet ballots in order to 
overcome the disadvantage of being submerged. And then the 
legislature then outlawed that, made it illegal for you to 
single shot.
    Mr. Butterfield. We are notorious for cutting off 
witnesses, so please don't take this personally, but the five 
minutes go pretty fast.
    The next question. Do at-large elections still exist? Do 
you still encounter at-large elections or are they a relic of 
the past?
    Mr. Joyner. They are not a relic of the past. They are 
still present and they are coming back.
    Mr. Butterfield. And in those jurisdictions, do you find 
African American communities and other minority communities 
submerged in these at-large systems and their votes are 
diluted?
    Mr. Joyner. Yes, that is correct.
    Mr. Butterfield. And do these jurisdictions every 10 years 
redistrict, as they are supposed to according to law?
    Mr. Joyner. The smaller districts typically do not. On the 
State level they redistrict, but typically at the smaller 
level----
    Mr. Butterfield. City Council----
    Mr. Joyner. City Council----
    Mr. Butterfield [continuing]. County Commission, Board of 
Education?
    Mr. Joyner. They don't.
    Mr. Butterfield. All right.
    Mr. Lopez, as I have a little time left, let me again thank 
you for your testimony as well. You mentioned Halifax County as 
an example of a county that has only one early voting site in 
the whole county.
    I have been coming to Halifax County for more than 50 
years, and I can tell you firsthand this is a large county. It 
stretches from Littleton on the west end to Scotland Neck on 
the east end. That is a long ways, and a substantial number of 
households do not have transportation. And to have only one 
early voting site in the county, do you find that to be 
problematic?
    Mr. Lopez. It is deeply problematic, sir.
    Mr. Butterfield. I have a statement, Madam Chairwoman, from 
the Chairman of the Halifax County Board of Elections. Her name 
is Kristin R. Scott, Elections Director. I have a letter that I 
would offer for the record that explains the difficulties 
encountered by her office in funding multiple locations of 
early voting.
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T8117A.088
    
    Mr. Butterfield. Thank you, Madam Chairwoman.
    Now, you mentioned voter ID, Mr. Lopez. I believe the 
original voter ID law passed by the legislature was struck down 
by the court.
    Mr. Lopez. Yes.
    Mr. Butterfield. Which court struck that down?
    Mr. Lopez. That was the United States Court of Appeals for 
the Fourth Circuit.
    Mr. Butterfield. That is a Federal court.
    Mr. Lopez. Yes, sir.
    Mr. Butterfield. Right. And then I believe the legislature 
came back some time later and adopted a constitutional 
amendment, and that proposition was placed on the statewide 
ballot. Is that correct?
    Mr. Lopez. Yes.
    Mr. Butterfield. And then that constitutional amendment was 
struck down by which court?
    Mr. Lopez. There was a State court in North Carolina that 
struck down the amendment that said basically that because the 
legislature that passed it was unlawfully constituted, per a 
Federal court decision as to gerrymandering, that really it 
violated North Carolinian constitutional principles as to its 
authority to actually pass amendments.
    Mr. Butterfield. And finally, is it true that the 
legislature is of the opinion they can still continue with the 
voter ID law because of the enabling legislation, 
notwithstanding the unconstitutionality of the amendment?
    Mr. Lopez. That is my understanding. And my understanding 
is that they are also appealing the State Court decision.
    Mr. Butterfield. So unless something changes, we will have 
voter ID in 2020?
    Mr. Lopez. Yes. And I would say, in addition to the actual 
amendment legislation, the enabling legislation is also being 
litigated.
    Mr. Butterfield. Thank you.
    I yield back.
    Chairwoman Fudge. Thank you.
    Let me just ask each of you, if there were two things that 
you would say that the Federal Government needs to do to assist 
you in your efforts to make sure that North Carolinians are 
treated fairly, that we can once again give some confidence 
back to the people that we are doing all we can to be sure that 
everyone has the right to vote, what would those couple of 
things be?
    We will just start with you, Professor Joyner, and just go 
straight across.
    Mr. Joyner. Well, I want to adopt everything that has been 
said already about the Voting Rights Act and its importance. 
What I would add to that is that we need to have an independent 
voter protection agency as a part of the Federal Government to 
regulate and oversee efforts to guarantee that this fundamental 
right is honored.
    Voting is a fundamental right and it is just as fundamental 
as is communications, as is election financing, and the 
independent agencies at the Federal level to oversee that.
    We have lost faith in the Justice Department to protect our 
rights. So, therefore, we need something more permanent than 
that, and it ought to be in the form of an independent agency 
with the authority and power to oversee and regulate voting.
    Chairwoman Fudge. Okay. So you would not support the 
position that the Department of Justice should still do 
preclearance?
    Mr. Joyner. I would not personally, in light of egregious 
decisions that have been made by that agency in the past years.
    Chairwoman Fudge. Mr. Lopez.
    Mr. Lopez. As I stated earlier, I think Congress, by 
restoring the full protections of the Voting Rights Act with a 
coverage formula that was able to account for the kinds of 
voting discrimination that we see today, that addresses a range 
of States--Madam Chairwoman, you are from Ohio, that is a State 
that has a number of major issues involving voting rights--and 
one that recognizes also the changing nature of the country.
    North Carolina's citizen voting age population increased by 
7.1 percent between 2012 and 2017, but Spanish language limited 
English proficient citizens, that population increased by about 
40 percent in that time. The nature of who is living and who is 
voting and who are eligible voters is changing in this State 
and around the country. And so language access is going to be 
an important piece of that picture, as well, among the many 
other things that we are talking about here.
    Chairwoman Fudge. Well, certainly one of the things that 
these hearings across the country are attempting to do is to 
create the very record that you are talking about so that we 
can have a formula that would satisfy not only the Supreme 
Court, but the Congress of the United States.
    Any data that you may have, you know, clearly--and I will 
just read this now. The record is going to remain open for at 
least five business days for additional material. So if you 
have materials, we would very much love for you to submit them. 
And we will take a look at them and decide whether they should 
be a part of our permanent record.
    Reverend Barber.
    Rev. Barber. Thank you, Madam Chairwoman.
    First, I think we should fully restore and expand the 
Voting Rights Act. Looking at the dynamics today, 40 percent of 
the population in the South is now people of color. We should 
fully expand it.
    I think that we have to be very careful when I hear people 
wanting to make this about partisanship and keeping it where it 
is, about race. Ultimately, voter suppression is racist voter 
suppression. That has always been and that is what we continue 
to see. The Supreme Court said here in North Carolina, it was 
with surgical precision regarding race.
    I think we also--and I would like to submit some additional 
things--but also issues like automatic voter registration at 
18. If you can be registered for war at 18 automatically, you 
should be registered to vote automatically at 18, to expand the 
vote. We should be looking at ways we can expand and more 
institutionalize early voting. All those things that allow more 
participation.
    I am haunted by that question the Federal judge asked: Why 
is it that people don't want people to vote? And I would hope 
you would pull that from that Federal--he asked it in court. It 
is in the record.
    Lastly, and I don't know how we deal with this, but beyond 
just restricting the right to vote, what we have had in North 
Carolina and in other places is an unconstitutionally 
constituted legislature then blocking the people of North 
Carolina from benefits like Medicaid expansion, like living 
wages.
    And then an unconstitutionally constituted legislature, 
once they lose in the Federal court and lose in the State 
court, turn around and put things in the Constitution. And some 
way that is very troubling, that you can be elected by a 
procedure that the courts say is unconstitutional but use your 
unconstitutional ill-gotten power to then implement policies 
that affect people from their voting rights to their wages to 
how we address poverty to women's rights to immigrants' rights.
    That is, if it is not wrong legally, it is certainly wrong 
morally. I believe it is a fundamental undermining of democracy 
for those who have been unconstitutionally elected to then have 
the power to affect the lives of the people in every aspect and 
form of their daily lives.
    Mr. Butterfield. As we conclude, let me just use this last 
minute to again thank you the three of you for your testimony. 
It has been very valuable.
    I just want to reassure you. We were in North Dakota 2 days 
ago, in Bismarck, North Dakota, on an Indian reservation, and 
one of the witnesses there was very concerned that this would 
be an exercise in futility, that we were just politicians 
coming down just to check it off a list.
    But I want to assure you that your testimony today will be 
in the Congressional record. We are the Elections Subcommittee 
of the United States House of Representatives, and what you 
have said today will benefit us greatly.
    We are having seven field hearings across the country. We 
have already been to Brownsville, Texas, and Atlanta, Georgia. 
This week we are in North Dakota. Of course, we are here today. 
Next week, we are in Cleveland, Ohio. I don't know how we got 
to Cleveland, Madam Chairwoman, but that is the chair's 
hometown. And then we traverse down to Birmingham, Alabama. And 
then we conclude in Broward County, Florida.
    And so I just want to use my last minute to assure you that 
this is not just a political exercise; this is the real deal, 
and it is creating the official record that will be used to 
legislate on voting rights in the United States Congress.
    Thank you very much for your testimony.
    Chairwoman Fudge. Let me just ask this one last question, 
and I think you all have touched on it. But how do segregation 
and poverty create an additional barrier to voting, especially 
in places like Halifax County? Just go right down the line.
    You start, please, Professor Joyner.
    Mr. Joyner. Well, among other things, it erodes the trust 
that people have in the process and in the system. It erodes 
the belief that the system is serving them fairly and serving 
them well and is looking out for their best interests.
    The system has been created in such a way that people are 
locked into a series of deprivations, and with that they lose 
faith and trust in the system, therefore they are not willing 
to participate actively in making sure that the system works.
    Chairwoman Fudge. Mr. Lopez.
    Mr. Lopez. In some sense, democracy is a deal, that in 
exchange for your participation, your engagement, your needs 
are addressed. And where people see their needs not being 
addressed, they don't see the value of participating, as 
Professor Joyner stated.
    I would also say that it also makes alternatives to 
democracy and alternatives to participation more appealing. So 
that when you are told that the answer doesn't have to come 
from voting in this way, the answer doesn't have to come 
through certain kinds of solutions, you may be more open to 
that.
    I would also say that there are clearly ways in which these 
laws have been structured to take it to place barriers that are 
especially difficult to surmount for people who have these 
things that they are dealing with. And so that is why 
transportation access, food access, the ability to be a member 
participating in the economy are all things that actually 
matter as democracy issues.
    Chairwoman Fudge. Thank you.
    Dr. Barber.
    Rev. Barber. Yes, Madam Chairwoman.
    There was a concept that we used in our fight called an 
impoverished democracy. And that impoverished democracy says 
that when you deny things like early voting that we fought for 
years to put in place, finally won expansions in 2007 before 
the 2008 election, that you are undermining people who every 
day of their lives have to fight just to exist and may not be 
able to be off on election day. We actually believe Election 
Day ought to be a holiday. But early voting allows them, 
Saturday voting, to get there. When they don't have that, that 
is a form of an impoverished democracy.
    Photo ID, when you make people, as, God rest her soul, our 
dear plaintiff, Rosanell Eaton, before she died, she testified 
and was on the record of how many miles she had to travel and 
gas she had to spend. And she had voted for years, 50, 60 
years, but under the new law it prohibited her. She had to try 
to get this new ID. That is a form of poll taxing in the 21st 
century.
    But here is the other piece of it. We in the Poor People's 
Campaign: A National Call for Moral Revival have done a 
mapping, and that mapping is we mapped every State that has 
engaged in racist voter suppression, particularly since 2013, 
and we then overlaid that map with poverty. And this is what we 
found, and I can introduce this into the record: that every 
State that has massive racist voter suppression law elects 
politicians who are adversely against the poor.
    And so the same States that have racist voter suppression 
laws have the highest poverty, the highest child poverty, the 
highest women in poverty, the most adamant politicians against 
living wages. They all blocked Medicaid expansion. They all 
have policies that hurt women, the LGBTQ community, and 
immigrants.
    Ironically, the States that have the worst voter 
suppression elect politicians who end up passing policies that 
hurt mostly White people, because a majority of the poor are 
White in terms of raw numbers, even though the majority of poor 
per capita are Black.
    In this State there are almost 2 million poor and low-
wealth people. There are 140 million poor and low-wealth people 
in this country. And all of the States that have voter 
suppression have the worst policies toward the poor.
    So if you only knew that a State had racist voter 
suppression, you could hypothesize that that State is backwards 
when it comes to living wages, healthcare, workers' rights, 
laborers' rights, protection of the immigrant community, 
protection of the LGBTQ community.
    So voting rights targeted, voter suppression targeted, at 
Black people ends up hurting all people, because it is 
fundamentally against democracy.
    [Applause.]
    Chairwoman Fudge. Thank you.
    Mr. Butterfield. Madam Chairwoman, I introduced into the 
record a statement of Kristin Scott, elections director for the 
County of Halifax. What I failed to do was to also enter into 
the record a map of Halifax County showing--and I have it on 
the screen now--showing the contours of the entire county with 
the single early voting site being in Halifax, which is in the 
center of the county, which is many, many miles from the other 
communities.
    Thank you. I yield back.
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Butterfield. Thank you.
    Chairwoman Fudge. Let me just close by saying a couple 
things.
    Clearly, we know that our neighborhoods and our schools are 
probably as segregated now as they were in 1968. We know that 
people of color in this country have been singled out for 
precisely the kind of voter suppression that we are talking 
about here today.
    Now, we have colleagues who believe that there was fraud in 
this country in voting. But the woman you are talking about who 
voted for 50, 60 years and then all of a sudden she couldn't 
vote anymore, to me it is an abomination to who we are as a 
Nation.
    We are here to be sure that we can create the kind of a 
record that is going to be satisfactory to at least get a 
formula back in place, because if we don't it will get worse, 
it will not get better.
    As an African American, I know what it means to be an 
African American and I understand that it is hard to be black 
in America today, but I also know that it is hard to be poor in 
America today. It is hard to be a woman in America today. So we 
all have to come together to be sure that we can make America 
live up to her promise that all of us have the unabridged, 
unfettered right to vote.
    I thank you for being here today to talk about what it is 
you think we need to do, because there is much we need to do. 
We cannot change people's attitudes, but we clearly can change 
the law. I thank you all so much for being here, and I 
appreciate your time. Thank you so much.
    [Applause.]
    Chairwoman Fudge. If the panelists can just stay right 
here, we are going to walk around and take a photograph as we 
prepare to bring our second panel up. Thank you.
    Chairwoman Fudge. Thank you all so much. Let us begin our 
second panel. If you can either take your seats or take your 
conversations out of the area, we would like to begin. Thank 
you so much. It is now time for our second panel.
    Let me begin by introducing Senator Dan Blue, who is a 
member of the North Carolina Senate, where he serves as his 
chamber's Minority Leader. He also previously served as Speaker 
of the House in North Carolina and is a tireless leader in this 
State. Welcome.
    Caitlin Swain is co-Director of Forward Justice. Ms. Swain 
has litigated challenges to North Carolina's voting laws and 
works at the intersection of law, policy, and civil rights in 
the South.
    Last but not least, Justice Patricia Timmons-Goodson, Vice-
Chair of the U.S. Commission on Civil Rights. Justice Timmons-
Goodson was most recently an Associate Justice of the Supreme 
Court of North Carolina from 2006 to 2012, and before that, was 
an Associate Judge on the North Carolina Court of Appeals, and 
a District Judge of the 12th Judicial Circuit. President Obama 
appointed her to the U.S. Commission on Civil Rights in July 
2014.
    Thank you all so much for being here.
    Mr. Blue, you are recognized for five minutes.

STATEMENTS OF DAN BLUE, SENATE MINORITY LEADER, NORTH CAROLINA 
STATE SENATE; CAITLIN SWAIN, CO-DIRECTOR, FORWARD JUSTICE; AND 
 HON. PATRICIA TIMMONS-GOODSON, VICE-CHAIR, U.S. COMMISSION ON 
                          CIVIL RIGHTS

                     STATEMENT OF DAN BLUE

    Mr. Blue. Thank you very much, Madam Chairwoman and 
Congressman Butterfield. We are glad you are in North Carolina 
conducting this hearing. Just quickly, in 1978, North Carolina 
had one of the lowest black participating voting rates. Over 
the next 30 years, by 2008, North Carolina had one of the 
highest black participation rates in elections, and that was 
because of a series of laws that were enacted over that 30-year 
period to encourage voting and to remove the obstacles to 
minority voting, and we were successful at it.
    One of the things that I have heard talked about earlier 
today was the monster law in 2013, I lived through it, I was in 
the Senate at the time, and it was designed to totally reverse 
the history that I just related to you. It was aimed at all 
those measures that we had taken over the previous 30 years to 
ensure participation and access to the ballot for all the 
citizens of this State.
    Now, I would like to address, briefly, some fallout, I 
think, from this whole discussion of Section 4, because it 
relates also to the question of overall voter suppression. And 
I think that voter fraud has been the basis upon which a lot of 
these laws have been enacted. In North Carolina, that is 
basically a nonstarter. There is very little voting fraud in 
North Carolina.
    The real issue has been election fraud in this State much 
more, I think, recently than voting fraud. And in-person voting 
fraud has been a red herring from the beginning of the 
discussions that I have heard from the early 1980s forward, and 
it still is a red herring. An audit of votes in the 2016 
general election found one case of in-person voter 
impersonation out of 4.8 million votes cast. One case.
    When Republicans have amplified the false narrative that 
in-person voter fraud is rampant, now we have discovered true 
election fraud, and you don't have a colleague representing the 
Ninth Congressional District in North Carolina. That is the 
real challenge. Ballot harvesting by political operatives 
compromise more than 2,500 votes in Robeson County, and Bladen 
County in North Carolina. It is the election fraud as opposed 
to the voter fraud that is the real challenge to us here. And 
we have been chasing this problem that is not a problem.
    But, to date, North Carolina General Assembly passed yet 
another voter ID law, claiming that it is going to prevent 
voter fraud, and nothing has gone on in a discussion of what we 
do about voter harvesting. The real cost of voter ID in the 
State, and we made this argument, is that this legislation that 
was enacted last year, this new amendment to our State 
Constitution, puts a tremendous burden on the State and local 
boards of election without the funding to back up these 
obligations that it makes access to the ballot even less 
likely.
    You have heard the testimony of the distances that people 
travel, but as importantly, it will cost $17 million to 
implement a photo ID requirement without any funding having 
been provided specifically for that. The original fiscal note 
attached to the implementing legislation that was referred to 
only addressed the voter fraud protection, and not these other 
broad ranges of issues that are present in this discussion. 
While local boards of election are tasked with creating new 
photo IDs, we haven't given them the funding to do it.
    Now, voter suppression is also occurring through voter 
confusion, which is another issue. The recent bill put the 
unnecessary burden on voters mandating that they must comply 
with new photo ID requirements at the polls in just five months 
from now. Five months from now, these are our local elections. 
And so we have a requirement for voter ID without any 
implementation for providing it.
    Of the 850 universities, colleges, government agencies, and 
tribes, only 72 applied for their voter identification 
requirements to be approved. Among them, 12 of North Carolina's 
17 UNC system schools were rejected for failing to meet the 
statutory requirements. Of our UNC system schools, only North 
Carolina State, North Carolina Central, Elizabeth City State, 
Appalachian State, and UNC-Asheville, students will be allowed 
to use their voter IDs to vote.
    Voter ID is required in an election occurring less than a 
month from now. A bill to fix the problem has been introduced 
in the House, but the Republican leadership in the Senate said 
there is nothing to fix. So it goes on. This whole issue of 
voter suppression, by way of confusing voters, as to what ought 
to be required in order for them to vote.
    [The statement of Mr. Blue follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much. Ms. Swain, you are 
recognized for five minutes.

                   STATEMENT OF CAITLIN SWAIN

    Ms. Swain. Thank you, Madam Chairwoman and Congressman 
Butterfield, hopefully you can hear me now. My name is Caitlin 
Swain, and I am co-Director of Forward Justice, a law, policy, 
and strategy center based in Durham, North Carolina, dedicated 
to advancing racial, social, and economic justice in the U.S. 
South. It has been our privilege to serve as counsel in several 
litigation efforts in North Carolina, post-Shelby, serving on 
behalf of the North Carolina NAACP.
    At Forward Justice, we know that when we enlarge the ``We'' 
in ``We, the people,'' we are stronger as a Nation. When we 
expand that ``We,'' we rise to the higher call of our moral and 
constitutional dictates. Freedom from racial discrimination in 
voting is not a partisan value, it is how we measure the 
guarantee of our shared commitment to a free, fair, and 
inclusive democracy. Yet, in North Carolina and across the 
Nation, our commitment to perfecting the union is in crisis. 
For the better part of a decade, shamefully, history is 
repeating itself.
    Post-Shelby, as you have heard today, and as this committee 
is well-aware, North Carolina has infamously become the testing 
ground for a crushing avalanche of anti-voter and racially 
discriminatory voter suppression policies. As soon as 
protections were lifted, as detailed in my written testimony, 
and as the committee has already heard this morning, the 
General Assembly of North Carolina enacted the most 
comprehensive voter suppression law seen since the Jim Crow 
era, targeting African American access to the ballot with what 
the Court of Appeals has termed ``surgical precision,'' 
eliminating same-day registration, a week of early voting, the 
safeguard of out-of-precinct voting, and pre-registration of 
16- and 17-year-olds. And also enacting one of the strictest 
discriminatory photo voter ID laws in the Nation.
    We know that photo voter ID in North Carolina is a solution 
in search of a problem. While the North Carolina NAACP and many 
other plaintiffs, including 96-year-old Mother Rosanell Eaton, 
who you heard about earlier this morning, ultimately succeeded 
in eliminating the law in historic litigation. Untold damage 
was done in the three intervening years before that decision 
came down and was ultimately supported by the U.S. Supreme 
Court.
    Right after the victory, in 2016, as I detail in my written 
testimony, the fight did not end. There are intersecting 
barriers to the right to vote at the local level, including 
early voting access issues that Tomas Lopez spoke about earlier 
today, as well as voter purge issues, which I have given 
detailed information about. I will speak to one of those 
issues.
    On the eve of the 2016 election, during the 30 days before 
Election Day, a challenge was made to the registration of 100-
year-old Grace Bell Hardison, based on an unreturned mailing. 
Ultimately, what we discovered in our investigation is that 
this challenge was a part of a mass systematic removal strategy 
in this State. Again, while we were victorious in the ultimate 
litigation, harm was done as we continued to have to divert our 
resources toward litigation and away from enfranchising voters.
    Access to the ballot should not be a party-line decision. 
We all have a stake in returning dignity to our democracy, and 
we know what works. And yet, as soon as the Supreme Court 
decision ultimately finding that the North Carolina NAACP v. 
McCrory case would be law took place, the General Assembly 
leadership came forward and said that they would be pursuing a 
constitutional amendment to enshrine voter ID in the North 
Carolina Constitution. And I just want to note, obviously we 
have spoken about this today, but a quote from the General 
Assembly leadership at that time, the Republican General 
Assembly leadership, that the goal was to mute future court 
challenges.
    We must restore the Voting Rights Act preclearance regime. 
It is a shameful--it is shameful here in North Carolina what 
voters have had to do to have confidence in this democracy. I 
look forward to answering your questions as to specific 
concerns, and I thank you for this opportunity.
    [The statement of Caitlin Swain follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. I thank you as well. The Honorable 
Patricia Timmons-Goodson, you are recognized for five minutes.

           STATEMENT OF HON. PATRICIA TIMMONS-GOODSON

    Judge Timmons-Goodson. Thank you very much. Chairwoman 
Fudge and Representative Butterfield, thank you so very much 
for inviting me to appear today. I am Patricia Timmons-Goodson.
    Chairwoman Fudge. Pull the mic.
    Judge Timmons-Goodson. Thank you. I am Patricia Timmons-
Goodson, Vice-Chair of the United States Commission on Civil 
Rights, and I come before you today to speak about our 2018 
statutory enforcement report entitled ``An Assessment of 
Minority Voting Rights Access in the United States.'' That 
report is available, in full, on the Commission's website.
    Congress has directed the Commission to annually examine 
Federal civil rights enforcement efforts. Pursuant to that 
mandate, the Commission conducted a day-long briefing and 
public comment period in Raleigh, North Carolina, in February 
2018. The decision to come to North Carolina was a bittersweet 
one for me. On the one hand, like Representative Butterfield, I 
delight in bringing visitors to my home State. On the other 
hand, I suspected that recent political and legislative changes 
would prevent--would present North Carolina in less than a 
favorable light. I understood that the visit was a must, and in 
the best interest of our State.
    The day after the Shelby County v. Holder decision, the 
General Assembly in North Carolina amended a pending bill to 
make its voter ID law stricter, and added other provisions 
eliminating, or restricting opportunities to vote that had been 
beneficial to minority voters, as Senator Blue has shared 
earlier. Federal courts later found these actions in North 
Carolina to be intentionally, racially discriminatory after 
years of litigation.
    The Commission, after its hearing, unanimously voted for 
the following key recommendations:
    Number one, that Congress should amend the Voting Rights 
Act to restore and/or to expand protections against voting 
discrimination that are more streamlined and efficient than 
existing provisions of the Act.
    Secondly, that in establishing the reach of an amended 
Voting Rights Act coverage provisions, Congress should include 
current evidence of voting discrimination, as well as evidence 
of historical and persisting patterns of discrimination. 
Another key recommendation, that a new coverage provision 
should account for evidence that voting discrimination tends to 
recur in certain areas.
    The Commission heard from 33 members of the public during 
our public comment period. Let me quickly share some of those 
comments. There was a common refrain, such as, ``Democracy 
works better when more people participate.'' ``A concerted 
coordinated effort is underway to undermine democracy in North 
Carolina.'' And we heard--continue to hear about a monster 
piece of legislation, and that that was to blame.
    Just sharing snippets of those public comments, from Ms. 
Mary Elizabeth Hanchey, she indicated that we were drowning in 
North Carolina in artful barriers to access the ballot, and 
that our minority communities were particularly subject to 
these artful barriers. From Ajamu Dilahunt, as he spoke of the 
monster law, he shared with us that racial gerrymandering 
prevented black political power through packing, and as he 
said, cracking, and used an example of the General Assembly 
splitting a precinct in the historically black college at A&T 
down the middle. One part of the campus was in one district, 
and the other part in another part of the district. And I am 
going to submit the transcript from that hearing.
    As you will see from the transcripts and the small snippets 
of North Carolina voting rights stakeholders that I just 
shared, there is growing and continuous concern for the voting 
rights of Americans. The distressing data from our report 
further adds to the urgency of Congress to restore and/or 
expand voter protections. Thank you.
    [The statement of Judge Timmons-Goodson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you. Thank you all. And with your 
report, with no objection, we will enter it into the record. So 
ordered. Thank you. We will begin with our questions. Mr. 
Butterfield.
    Mr. Butterfield. Again, thank you very much, Madam 
Chairwoman, for yielding time to me. Thank you. First, let me 
acknowledge that all three of you are lawyers, so that is very 
helpful to us. While we are interested in history and what 
happened during Reconstruction and Antebellum era, and I am 
guilty of it as well, we are trying to create a contemporary 
record that will be valuable and relevant in the inquiry that 
we are engaged in. Thank you for speaking to contemporary 
issues that are present here in North Carolina.
    We were in, as I mentioned, North Dakota on Tuesday of this 
week. It is interesting to know that North Dakota does not have 
voter registration. I didn't know that before I got there, but 
they do not have voter registration. You just so show up on 
Election Day and you vote. But the fact of the matter is, that 
after the Shelby decision was made, the State came up with a 
voter ID requirement in North Dakota. And prior to that, the 
communities were so small that the community natives could 
identify every person that came through the polling place, 
because they were all friends, but after Shelby, they had this 
voter ID requirement.
    But the problem that we had to encounter was that there are 
Indian reservations in North and South Dakota where the Native 
Americans do not have street addresses, they have P.O. Boxes, 
that is their culture. They were being prohibited from casting 
their vote and being able to participate and so your testimony 
today is very helpful.
    Let me start with you, Senator Blue. Again, thank you. You 
and I have been friends for 105 years, 110 years, but it is 
good to see you again. According to the Brennan Center for 
Justice, Senator, between September 2016 and May of 2018, North 
Carolina purged 11 percent of its voter rolls. Just 19 of its 
counties purged fewer than 10 percent of their voters. No 
county purged fewer than 8 percent. These purges have been 
especially troubling for voters of color. In 90 out of 100 
counties, voters of color were overrepresented among the purged 
group.
    Can you shed any light on that? Why has North Carolina 
purged so many voters?
    Mr. Blue. Well, part of the challenge is--and, again, you 
are familiar with the Federal court decision prior to the last 
election that stopped the purge somewhere in the middle 
district, I forget exactly which county, maybe it was in 
Cumberland County, or either Forsyth County. But, nevertheless, 
there are more dependable ways to determine where someone is 
now. And simply mailing a postcard, whether it is one of those 
post office boxes in South Dakota or mailing it to someone that 
you know is mobile and determining that as a soul reason to 
purge someone is not a way to do it in 2021--in 2020, rather. 
You can find out where someone is using much more modern 
techniques now rather than just sending a post card to find out 
whether they have moved, if they haven't voted in the last two 
Presidential elections.
    I think a lot of it is updating our way of determining 
one's whereabouts, using modern technology rather than 400-
year-old technology.
    Mr. Butterfield. Sometimes even modern technology has its 
flaws. I had a witness in North Dakota who said that they came 
up with a scheme, that you called 911 if you didn't have a 
street address the technology would identify your location. And 
they identified this fellow's location as a liquor store, which 
is obviously where he didn't live.
    But, anyway, to you, Caitlin Swain, thank you. Let's talk 
about preclearance for a second. You know, I practiced voting 
rights law for a very short period of time and even I did not 
recognize in the beginning the power and effectiveness of 
Section 5 preclearance. It was a powerful tool until it was 
suspended by the Court. It was essentially at no cost. The 
burden of proof was on the jurisdiction seeking to obtain a 
change in election precision, and the jurisdiction had the 
obligation to submit the data and the request to the Department 
of Justice for preclearance. Sometimes there was preclearance; 
sometimes there was not preclearance. But there was no cost 
associated with it, and it was very effective, if you had a 
fair Department of Justice.
    On the other hand, Section 2, which was the provision that 
we used here in this county, is very expensive. When I did it 
years ago, it was in the hundreds of thousands of dollars, and 
now I suspect it is in the millions of dollars to fully 
litigate a Section 2 claim without preclearance. The time and 
expense of protecting the right to vote has increased, 
litigation can be costly. Sometimes lawsuits can't be decided 
very quickly.
    My question is, can you describe the sorts of resources 
that are necessary to litigate voting cases? Where does this 
money come from?
    Ms. Swain. Absolutely, Congressman Butterfield.
    Mr. Butterfield. And I am running out of time, so if you 
could truncate your response.
    Ms. Swain. I would be happy to. In the Section 2 litigation 
that we have spoken about today, the counsel, all together, 
estimated more than $10 million of costs, just on the 
plaintiff's side. That was close to doubled when you also 
include nonprofit groups, estimates of the cost that we took on 
as well as the State's cost in bringing in private counsel to 
represent the Governor as well as the General Assembly. All 
those costs are borne disproportionately by the taxpayers of 
this State now, as well as by the--as well as a nonmonetary 
cost, which is that the burden is on the voters now, and I have 
detailed that.
    Mr. Butterfield. And, Ms. Timmons-Goodson, if you would 
give an addendum to that. Has the loss of preclearance made it 
more difficult to track these changes at the local level that 
could have--that could have a discriminatory effect----
    Judge Timmons-Goodson. It absolutely----
    Mr. Butterfield [continuing]. From the Civil Rights 
Commission's perspective?
    Judge Timmons-Goodson. From the Civil Rights Commission's 
perspective, it certainly has made tracking more difficult. At 
one point, there was a single source or a limited number of 
places that we could go to get the information, but when it is 
left to individual citizens and organizations to do the filing, 
it makes it far more difficult to track them.
    Mr. Butterfield. Thank you. Thank you. I yield back.
    Chairwoman Fudge. Thank you. Before we go any further, I 
was asked a question by someone in the audience about whether 
the audience could ask questions. This is an official 
Congressional hearing, so it does not allow for audience 
participation by way of asking questions. Just so that you 
would know that we are not ignoring you, this just happens to 
be an official hearing.
    Senator Blue, now I was talking to some of my sorority 
sisters last night, and they were telling me how the State 
legislature a few years back did everything they could to make 
it difficult for educators and the young people they educate by 
changing lots of rules. Now, I see that they are making it 
difficult for people to vote.
    What do your colleagues say, if they are ever asked? What 
is it that they have against hard-working people or against 
poor people, or against people who just want to participate and 
have their rights? What do they say?
    Mr. Blue. They don't say, Congresswoman. It is just that 
their belief is that fewer people who vote, the better their 
chances for sustaining themselves. That is what we experienced 
in the redistricting. The thought that the more people that I 
exclude from it, the more regressive the policies I adopt are, 
and they are not able to do anything to me about that.
    I think that Dr. Barber described it adequately that when 
you put extra burdens on people who are already overburdened, 
then they are going to have to make choices as to what they 
choose to do. And so they will choose not to vote, if it is 
more difficult, if you got to spend money to go vote. The 
question that Congressman Butterfield asked me about, the 
purging. If, in fact, you know that the poorer people are less 
likely to own their homes, and more likely to rent, they are 
going to be moving to different places, different apartments 
and stuff, and they are more subject to being purged. And there 
is data that backs that up, and so they look at that as they 
make the decisions.
    It is not a desire to get 100 percent represented 
democracy. It is a desire on their part, at least as I see it, 
to get representation for the people who agree with them, and 
not the people who might have a different experience or 
different idea as to how government ought to operate.
    Chairwoman Fudge. It is interesting to me, and G.K. said 
that we are all lawyers, the Constitution doesn't say that you 
can only vote if you vote in every election. It didn't say that 
if you skip two or three, that you can't vote. The Constitution 
doesn't say that. The Constitution says you have an unabridged, 
unfettered right to vote.
    I really believe that purging is unconstitutional. And for 
all of those who constantly want to recite the Constitution and 
talk about the First Amendment, and read it when we start 
Congress, they really don't care about the Constitution, 
because if they did, they would make it easier for people to 
vote and not harder.
    [Applause.]
    Chairwoman Fudge. Ms. Timmons-Goodson, when you prepare 
reports, as the one that you have described to us, where does 
that report go? Is there a Congressional committee that you 
make--that you testify in front of, or what happens to those 
reports?
    Judge Timmons-Goodson. Yes. The Commission, upon deciding 
the issue that we are going to examine, commences to bring 
together experts in and on a particular issue. So those experts 
may come from government, may come from the Academy, may be 
regular citizens, and they testify, much as we are doing here 
today.
    The report that was filed in connection with voting rights 
represented our statutory report. By law, the U.S. Commission 
on Civil Rights must submit to Congress and the President at 
least one report each year, and so the voting rights was our 
issue for the year.
    A copy was sent to the President, and to the leaders of 
Congress. And when I say ``leaders,'' I am talking about the 
leadership, and then we make available to other Members of 
Congress a copy of the report.
    Chairwoman Fudge. I am going to ask you all the same 
question I have asked on every panel, because we are 
responsible for Federal elections. Obviously, sometimes they 
overlap. But if there was something that you would believe that 
the Federal Government could do to assist in making elections 
fairer in North Carolina, what would it be? And I will just 
start and go straight down the line. Senator?
    Mr. Blue. I would give you two quick suggestions. One would 
be for the Congress to weigh in on this whole question of 
redistricting. You do have the power and authority to determine 
what Federal elections look like. And if you set the model 
using Federal elections, I think the States mostly will follow.
    Secondly, the Congress can weigh in to make it easier for 
people to vote. When we started early voting, same-day 
registration, and all of those, they were designed to make it 
easier for people to vote. Because in interviewing people 
across the State and in representing people across the State, 
they couldn't get off work on Election Day. And if you are in 
rural North Carolina, for the most part, where I grew up, you 
were encouraged not to vote, and you were penalized if you did.
    I think that Congress could engage in the discussion of 
Election Day itself. We are probably one of the few advanced 
societies that does not recognize Election Day as a holiday, as 
a day that everybody can take off to go vote.
    Now, if you got ample one-stop voting or early voting, you 
don't have to do it, but you got to have 3 or 4 weeks of early 
voting in order to offset this 1-day vote so that people can 
express themselves.
    Chairwoman Fudge. Thank you. Ms. Swain.
    Ms. Swain. Thank you. In addition to reinstating the 
preclearance regime, which we have spoken about today, I have 
two further recommendations:
    One, as is included in H.R. 1, invest in incentives for 
State investment and voting infrastructure, voter modernization 
efforts, and expanding access to the ballot at the State level. 
So that would be Federal incentives to make those changes.
    Secondly, we believe that we must expand the right to vote 
to include those disenfranchised based on criminal convictions 
in this country. In North Carolina, this is a vestige of the 
1900 white supremacy campaign in the State. The constitutional 
amendment creating felony disenfranchisement was the same that 
created the literacy test. The Congress does have a role to 
play in this, though these are also State-based laws. I believe 
that that is also included in the current version of H.R. 1, we 
would endorse that here in North Carolina. Thank you so much.
    Chairwoman Fudge. Thank you. Ms. Timmons-Goodson.
    Judge Timmons-Goodson. Yes. I concur fully in the 
suggestions that have been put forth thus far and would not 
have any additional ones to add to that.
    Chairwoman Fudge. Well, I thank you all for your testimony, 
and I thank the audience for being here. I want to thank our 
staff for the work that they have done to make sure that this--
basically all I do is come and sit down, they do all the work. 
I want to thank them for the work they are doing. As well, I 
would like to thank Halifax Community College for hosting us 
today.
    And with that, I would thank my colleague, who is your 
Representative, and a good one at that. This hearing is, 
without objection, adjourned.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                            [all]
    
</pre></body></html>
